V

No. 19-3368

FILED

UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT

Jul 16, 2020
DEBORAH S. HUNT, Clerk

UNITED STATES OF AMERICA,

)
)
)
)
)
)
)
)
)
)
)
)

Plaintiff-Appellee,
v.
DON NELL HAWKINS,
Defendant-Appellant.

ORDER

BEFORE: SILER, ROGERS, and LARSEN, Circuit Judges.

The court received a petition for rehearing en banc. The original panel has reviewed the
petition for rehearing and concludes that the issues raised in the petition were fully considered
upon the original submission and decision of the case. The petition then was circulated to the full
court. No judge has requested a vote on the suggestion for rehearing en banc.
Therefore, the petition is denied.
ENTERED BY ORDER OF THE COURT

H'
Deborah S. Hunt, Clerk

Case: 19-3368

Document: 37-2

Filed: 06/17/2020

Page: 1

(2 of 5)

NOT RECOMMENDED FOR FULL-TEXT PUBLICATION
No. 19-3368
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
UNITED STATES OF AMERICA,
Plaintiff-Appellee,
v.

DON NELL HAWKINS,
Defendant-Appellant.

FILED

Jun 17, 2020
DEBORAH S. HUNT, Clerk

)
)
)

)
)
)
)

ON APPEAL FROM THE UNITED
STATES DISTRICT COURT FOR
THE NORTHERN DISTRICT OF
OHIO

)
)
)
)

AMENDED
ORDER

Before: SILER, ROGERS, and LARSEN, Circuit Judges.

Don Nell Hawkins, a federal prisoner, appeals pro se a district court order granting in part
and denying in part his motion to reduce his sentence pursuant to 18 U.S.C. § 3582('c1('lV'B') and
the First Step Act. This case has been referred to a panel of the court that, upon examination,
unanimously agrees that oral argument is not needed. See Fed. R. App. P. 34(a).
In 2007, Hawkins entered a guilty plea to a charge of possession with intent to distribute
cocaine base.

His career-offender sentencing guideline range was 262 to 327 months of

imprisonment, but the sentencing court adopted the government’s recommendation set forth in the
plea agreement that Hawkins should be sentenced to 240 months, which was also the statutory
mandatory minimum sentence. A supervised release terni of ten years was imposed. The First
Step Act allows the retroactive application of the Fair Sentencing Act of 2010 to sentences imposed

-C

Case: 19-3368

Document: 37-2

Filed: 06/17/2020

Page: 2

No. 19-3368
-2-

before 2010. Applying that Act in this case, Hawkins was subject to a mandatory minimum
sentence of 120 months and a minimum supervised release term of eight years. Hawkins therefore
filed a motion through counsel for a sentence reduction to time served and eight years of supervised
release.
The district court granted the motion in part, reducing the supervised release term to eight
years. However, the court denied the motion to reduce the term of imprisonment, noting that the
guideline sentencing range remained at 262 to 327 months. On appeal, Hawkins argues that the
district court erroneously believed that Hawkins was not eligible for a sentence reduction because
the guidelines range was unchanged; that we should therefore review the district court’s order de
novo; that his original sentence was not based on the guidelines range but on the statutory
mandatory minimum; that the district court erred in failing to discuss the other sentencing factors,
including post-sentencing history; and that the explanation given by the district court was
insufficient for our review. Hawkins also raises a new claim that he is not subject to a careeroffender guideline because a prior Ohio conviction is no longer a controlled substance offense,
citing United States v. Havis, 927 F.3d 382 (6th Cir. 2019) (en banc).
Hawkins cites United States v. McClain, 691 F.3d 774. Ill (6th Cir. 2012), for the
proposition that we should review the district court’s order de novo because the district court
believed that Hawkins was not eligible for a sentence reduction where his guideline sentencing
range had not changed. However, it does not appear that the district court found Hawkins ineligible
for a sentence reduction because it did grant the motion in part, reducing the term of supervised
release. Therefore, we do not read the district court as saying it could not—as opposed to would
not—reduce Hawkins’ sentence under § 404 of the First Step Act. We will review the district
court’s order for an abuse of discretion. Id. at 776.
Hawkins also cites United States v. Jackson, 678 F.3d 442. 444 (6th Cir. 2012), for his
argument that his original sentence was based on a range other than the career-offender guideline,
namely the statutory mandatory minimum. However, in Jackson, the sentencing court calculated
a lower guideline range and based the sentence on it, thus allowing the conclusion that the sentence
was not based on the career-offender guideline.

Here, the court simply found that the

(3 of 5)

Case: 19-3368

Document: 37-21

Filed: 06/17/2020

Page: 3

No. 19-3368
-3 -

government’s recommendation of 240 months, as contemplated in the plea agreement, was
reasonable. The court did not state that it was basing the sentence on the statutory mandatory
minimum. Therefore, there was no abuse of discretion in determining that, given the guidelines
range of 262 to 327 months, a reduction to time served was not warranted.
The argument that the district court failed to consider other sentencing factors, including
post-sentencing history, is not persuasive. The district court used an AO form to explain its
decision that stated the court had considered the defendant’s motion and the sentencing factors in
1 iUI.S.C. § 3553(aT Hawkins’ motion for a reduced sentence under the First Step Act argued that
the court should reduce his term of imprisonment because the 240-month mandatory minimum no
longer applies, Hawkins is older, and Hawkins has taken advantage of Bureau of Prisons classes
and programs. Accordingly, the form indicates that the district court considered Hawkins’ postsentencing conduct, as this was part of Hawkins’ motion and the court did give not any indication
that it did not consider this argument or viewed itself as being precluded from considering
Hawkins’ post-sentencing conduct. Cf. United States v. Allen, 956 F.3d 355. 357-58 (6th Cir.
2020).

The argument that this case should be remanded because the district court’s explanation of
its decision was insufficient is also unpersuasive. A lengthy explanation is not needed where it is
clear that the sentence has a reasoned basis. See Chavez-Meza v. United States, 138 S. Ct. 1959.
1966-67 (2018); United States v. Smith, 958 F.3d 494. 501 (6th Cir. 2020). Here, the district court
indicated at the original sentencing proceeding that the agreed below guideline 240-month
sentence was reasonable given the criminal history and the seriousness of the offense. The change
of the statutory mandatory minimum does not require a different result.
Finally, the new claim attacking a prior conviction as an insufficient predicate offense for
i

'

career offender status based on a decision of this court may not be raised under 18 U.S.C.
§ 3582/cVI VBl. which allows a modification of a sentence only if expressly permitted by statute.

(4 of 5)

Case: 19-3368

Document 37-2 1

Filed: 06/17/2020

Page: 4

No. 19-3368
-4-

For all the above reasons, we AFFIRM the district court’s order.

ENTERED BY ORDER OF THE COURT

Deborah S. Hunt, Clerk

(5 of 5)

#'«

*

*■

0

UNITED STATES OF AMERICA, Plaintiff-Appellee, v. DON NELL HAWKINS. Defendant-Appellant.
UNITED STATES COURT OF APPEALS FOR THE SIXTH CIRCUIT
2019 U.S. App. LEXIS 34087
No. 19-3368
November 14, 2019, Filed
Notice:
NOT RECOMMENDED FOR FULL-TEXT PUBLICATION. SIXTH CIRCUIT RULE 28 LIMITS
CITATION TO SPECIFIC SITUATIONS. PLEASE SEE RULE 28 BEFORE CITING IN A PROCEEDING
IN A COURT IN THE SIXTH CIRCUIT. IF CITED, A COPY MUST BE SERVED ON OTHER PARTIES
AND THE COURT. THIS NOTICE IS TO BE PROMINENTLY DISPLAYED IF THIS DECISION IS
REPRODUCED.
Editorial Information: Prior History
{2019 U.S. App. LEXIS 1}ON APPEAL FROM THE UNITED STATES DISTRICT COURT FOR THE
NORTHERN DISTRICT OF OHIO.United States v. Hawkins. 278 Fed. Appx. 629, 2008 U.S. App.
LEXIS 11439 (6th Cir.), 2008 FED App. 292N (6th Cir.) (6th Cir. Ohio, May 23, 2008)
For United States of America, Plaintiff - Appellee: Daniel R. Ranke,
Assistant U.S. Attorney, Office of the U.S. Attorney, Cleveland, OH.
Don Nell Hawkins. Defendant - Appellant, Pro se, Lisbon, OH.
Judges: Before: SILER, ROGERS, and LARSEN, Circuit Judges.
Counsel

Opinion

ORDER
Before: SILER, ROGERS, and LARSEN, Circuit Judges.
L

Don Nell Hawkins, a federal prisoner, appeals pro se a district court order granting in part and
denying in part his motion to reduce his sentence pursuant to 18 U.S.C. § 3582(c)(1)(B) and the First
Step Act. This case has been referred to a panel of the court that, upon examination, unanimously
agrees that oral argument is not needed. See Fed. R. App. P. 34(a).
In 2007, Hawkins entered a guilty plea to a charge of possession with intent to distribute cocaine
base. His career-offender sentencing guideline range was 262 to 327 months of imprisonment, but
the sentencing court adopted the government's recommendation set forth in the plea agreement that
Hawkins should be sentenced to 240 months, which was also the statutory mandatory minimum
sentence. A supervised release term of ten years was imposed. The First Step Act allows the
retroactive application{2019 U.S. App. LEXiS 2} of the Fair Sentencing Act of 2010 to sentences
imposed before 2010. Applying that Act in this case, Hawkins was subject to a mandatory minimum
sentence of 120 months and a minimum supervised release term of eight years. Hawkins therefore
filed a motion through counsel for a sentence reduction to time served and eight years of supervised
release.
The district court granted the motion in part, reducing the supervised release term to eight years.

CIRHOT

1

©2019 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the
restrictions and terms and conditions of the Matthew Bender Master Agreement.

/)fiPDU0XY' P\
53703060

-

¥

However, the court denied the motion to reduce the term of imprisonment, noting that the guideline
sentencing range remained at 262 to 327 months. On appeal. Hawkins argues that the district court
erroneously believed that Hawkins was not eligible for arsentence>eduction because the guidelines
range was unchanged; that we should therefore review the district court’s order de novo; that his
original sentence was not based on the guidelines range but on the statutory mandatory minimum;
that the district court erred in failing to discuss the other sentencing factors, including
post-sentencing history; and that the explanation given by the district court was insufficient for our
review. Hawkins also raises a new claim that he is not subject to a{2019 U.S. App. LEXIS 3}
career-offender guideline because a prior Ohio conviction is no longer a controlled substance
offense, citing United States v. Havis, 927 F.3d 382 (6th Cir. 2019) (en banc).
, Hawkins cites United States v. McClain, 691 F.3d 774, 777 (6th Cir. 2012), for the proposition that
we should review the district court's order de novo because the district court believed that Hawkins
was not eligible for arSentenc^ reduction where his guideline sentencing range hadjio.t,changed.
However, itjjp.e.S-n.Qt^Bpeafthat the district court found Hawkins ineligible for a<sentence)r.eduction
because it did grant the motion in part, reducing the term of supervised release. Therefore, we will
review~th e~district court's order for an abuse of discretion. Id. at 776.
Hawkins also cites United States v. Jackson, 678 F.3d 442, 444 (6th Cir. 2012), for his argument
that his original sentence was based on a range other than the career-offender guideline, namely the
statutory mandatory minimum. However, in Jackson, the sentencing court calculated a lower
guideline range and based the sentence on it, thus allowing the conclusion that the sentence was not
based on the career-offender guideline. Here, the court simply found that the government's
recommendation of 240 months, as contemplated in the plea agreement, was reasonable. The court
did not state that it was basing the sentence on the statutory{2019 U.S. App. LEXIS 4} mandatory
minimum. Therefore, there was no abuse of discretion in determining that, given the guidelines
range of 262 to 327 months, a reduction to time served was not warranted.
______
/The argument that the district court should have considered other sentencing factors, including
j
post-sentencing history, is not persuasive. In Dillon v. United States, 560 U.S. 817, 831, 130 S. Ct. j
2683, 177 L. Ed. 2d 271 (2010), the Supreme Court determined that, when deciding a motion to J
reduce sentence under 18 U.S.C. § 3582(c)(2), aspects of the original sentencing decision not
l affected by the changed guidelines range are outside_tbe_sc.ope of the proceed incpThe sai elogic
\ applies here^The argument that this case should beremanded because the district court's
V_expf^Tation of its decision was insufficient is also unpersuasive. A lengthy explanation is not needed
where it is clear that the sentence has a reasoned basis. See Chavez-Meza v. United States, 138 S.
Ct. 1959, 1966, 201 L. Ed. 2d 359 (2018). Here, the district court indicated at the original sentencing
proceeding that the agreed 240-month sentence was reasonable given the criminal history and the
seriousness of the offense. The change of the statutory mandatory minimum does not require a
different result.

•

Finally, the new claim attacking a prior conviction as an insufficient predicate offense for career
offender status based{2019 U.S. App. LEXIS 5} on a decision of/his court may not be raised under
18 U.S.C. § 3582(c)(1)(B), which allows a modification of a<sdntence)only if expressly permitted by
statute.
For all the above reasons, we AFFIRM the district court's order.

CIRHOT

2

© 2019 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the
restrictions and terms and conditions of the Matthew Bender Master Agreement.

53703060

Case: 5:06-cr-00505-PAG Doc#: 234 Filed: 04/12/19 1 of 1. PagelD#:1423
AO 247 (Rev. 11/11) Order Regarding Motion for Sentence Reduction Pursuant to 18 U.S.C. § 3582(c)(2)

Page 1 of 2 (Page 2 Not for Public Disclosure)

United States District Court
for the
Northern District of Ohio
United States of America
v.
Don Nell Hawkins

FIRST STEP ACT OF 2018

)
)
)

Case No: 5:06CR505-001

)
)

Vanessa Malone, FPD

) USMNo: 53703-060
Date of Original Judgment:
Date of Previous Amended Judgment:
(Use Date ofLast Amended Judgment ifAny)

05/01/2007

Defendant‘s Attorney

ORDER REGARDING MOTION FOR SENTENCE REDUCTION
PURSUANT TO 18 U.S.C. § 3582(e)(2)
Upon motion of Q the defendant Q theDirector of the Bureau of Prisons [j| the court under 18 U.S.C.
§ 3582(c)(2) for a reduction in the term of imprisonment imposed based on a guideline sentencing range that has
subsequently been lowered and made retroactive by the United States Sentencing Commission pursuant to 28 U.S.C.
§ 994(u), and having considered such motion, and taking into account the policy statement set forth at USSG § 1B1.10
and the sentencing factors set forth in 18 U.S.C. § 3553(a), to the extent that they are applicable,
IT IS ORDERED that Hie motion is:
OdeNIED. □ GRANTED and the defendant’s previously imposed sentence of imprisonment (as reflected in
months is reduced to
the lastjudgment issued) of
(Complete Parts I and IT ofPage 2 when motion is granted)

Defendant's Motion to Reduce Sentence Under Section 404 of the First Step Act is GRANTED only to the extent
the defendant's term of supervised release is reduced to eight years. In that his guideline range remains the same,
the sentence of 240 months stands.

Except as otherwise provided, all provisions of the judgment dated

05/01/2007

shall remain in effect.

IT IS SO ORDERED.
Order Date:

04/12/2019

Patricia A. Gaughan
Judge’s signature

Chief Judge Patricia A. Gaughan, U.S. District Court Judge

Effective Date:
(ifdifferentfrom order date)

Printed name and title

-s

